U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 12, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: McCoy v. United States, No. 19-814
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 26,
2019. The government’s response is now due, after two extensions, on March 27, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 14, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0814
MCCOY, TONY DESHAWN
USA

JEFFREY T. GREEN
SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, DC 20005
202-736-8291
JGREEN@SIDLEY.COM
JOHN WESLEY HALL
NATIONAL ASSOCIATION OF CRIMINAL
DEFENSE LAWYERS
1202 MAIN STREET
SUITE 210
LITTLE ROCK, AR 72202
501-371-9131
FORHALL@AOL.COM
PAMELA S. KARLAN
STANFORD LAW SCHOOL
SUPREME COURT LITIGATION CLINIC
559 NATHAN ABBOTT WAY
STANFORD, CA 94305
650-725-4851
KARLAN@STANFORD.EDU
ANTHONY MARTINEZ
FEDERAL DEFENDERS OF WESTERN NORTH
CAROLINA, INC.
129 WEST TRADE STREET
SUITE 300
CHARLOTTE, NC 28202-0000
ANTHONY_MARTINEZ@FD.ORG

